Attorneys for Petitioners:
Joshua Seth Lipshutz
Counsel of Record
GIBSON, DUNN & CRUTCHER LLP
333 South Grand Avenue
Los Angeles, CA 90071
(202) 955-8217
jlipshutz@gibsondunn.com
* 3 copies
Attorneys for Respondents:
Danielle Luce Goldstein
Counsel of Record
OFFICE OF THE LOS ANGELES CITY ATTORNEY
200 N. Spring St., 14th Floor
Los Angeles, CA 90012
(213) 978-1868
danielle.goldstein@lacity.org
* 3 copies
Other:
Hon. William F. Highberger
SUPERIOR COURT OF LOS ANGELES COUNTY
Re: Case Nos. BC689320, BC689321, BC689322
312 N. Spring Street, Department 10
Los Angeles, CA 90012
(213) 310-7010
* 1 copy
Clerk of Court
CALIFORNIA COURT OF APPEAL, SECOND DISTRICT, DIVISION 4
Re: Court of Appeal Case No. B304240
Ronald Reagan State Building
300 S. Spring Street
2nd Floor, North Tower
Los Angeles, CA 90013
(213) 830-7000
* 1 copy

